HHS/OIG - Audit, "Reviews Indicate That an Increase in Medicaid Disproportionate Share Hospital Payments to 175 Percent of Uncompensated Care Cost May Not Be Warranted," (A-06-01-00069)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Reviews Indicate That an Increase in Medicaid Disproportionate Share
Hospital Payments to 175 Percent of Uncompensated Care Cost May Not Be Warranted,"
(A-06-01-00069)
December 27, 2001
Complete
Text of Report is available in PDF format (595 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Recent legislation increased disproportionate share hospital
(DSH) reimbursement from 100 percent to 175 percent of uncompensated care costs.
The Centers for Medicare and Medicaid Services (CMS) estimates this will increase
Federal spending by $380 million over fiscal years 2003 through 2005. This final
report points out that the increase in reimbursement may not be warranted. Recent
and ongoing audits have shown that the DSH funds are not always actually going
to public hospitals, are not being retained by the public hospitals, are being
returned by the hospitals to the State for other uses, and are not always calculated
correctly. Among other things, we recommended that CMS seek legislation to at
least delay, if not repeal, the implementation of the increase in DSH payments
until the need for and use of DSH funds for actual direct care of uninsured
patients can be sufficiently reviewed. Further, we recommend CMS consider seeking
legislative reform to ensure that DSH funds remain at the hospitals to provide
care to vulnerable populations, rather than being returned to the State for
other uses. The CMS concurred with our recommendations.